                                      Table of Contents

Section                                                                               Page

   I      EXECUTIVE SUMMARY                                                                     1

  II      BACKGROUND                                                                            2

  III     OBJECTIVE                                                                             3

  IV      METHODOLOGY AND SCOPE                                                                 3

  V       RESULTS IN DETAIL                                                                     5

               1.     NCUA needs to improve its Continuous Monitoring Program                    5

               2.     NCUA needs to improve its Risk Management Program                         7

               3.     NCUA needs to improve its Plan of Action and Milestones                   9
                      (POA&M) Process

               4.     NCUA needs to improve its Configuration Management                        11
                      Program

               5.     NCUA needs to improve its Identity and Access                             12
                      Management Controls

               6.     NCUA needs to improve Remote Access Controls                              14

               7.     NCUA needs to improve its Incident Response and                           16
                      Reporting Process

               8.     NCUA needs to improve its Contingency Planning process                    17

               9.     NCUA needs to improve its Security Capital Planning and                   19
                      Investment Program

               10.    NCUA needs to improve its Security Awareness Training                     21
                      Program

               11.    NCUA needs to improve Oversight of its Contractor Systems                 22

               12.    NCUA needs to improve its Privacy Program                                 23




                                                           Restricted – For Official Use Only
                                               i
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


                              I. EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the National Credit Union Administration
(NCUA) engaged Mitchell & Titus, LLP (Mitchell & Titus), to independently evaluate
NCUA’s information systems and security program and controls for compliance with the
Federal Information Security Management Act (FISMA), Title III of the E-Government
Act of 2002.

Mitchell & Titus evaluated NCUA’s security program through interviews, documentation
reviews, technical configuration reviews, and sample testing. Mitchell & Titus evaluated
NCUA against such laws, standards, and requirements as those provided through
FISMA, the E-Government Act, National Institute of Standards and Technology (NIST)
standards and guidelines, the Privacy Act, and Office of Management and Budget
(OMB) memoranda and security and privacy policies.

While NCUA has worked to further strengthen its information security program during
Fiscal Year (FY) 2012, we identified three issues remaining from last year’s FISMA
evaluation that NCUA officials need to address:

   •   Developing a Continuous Monitoring strategy and plan;
   •   Reviewing (and reducing) holdings of Personally Identifiable Information; and
   •   Addressing the minimum security controls in the Asset Management and
       Assistance Center Security Plan.

In addition, we identified new findings in each of the following areas and made 29
recommendations where NCUA could continue to improve its information security and
privacy programs:

   •   Continuous Monitoring
   •   Risk Management
   •   Plan of Actions and Milestones (POA&M)
   •   Configuration Management
   •   Identity and Access Management
   •   Remote Access Management
   •   Incident Response and Reporting
   •   Contingency Planning
   •   Security Capital Planning
   •   Security Training
   •   Contractors Systems
   •   Privacy

We appreciate the courtesies and cooperation provided to our staff and Mitchell & Titus
staff during this audit.




                                                          Restricted - For Official Use Only
                                            1
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


                                             II. BACKGROUND

This section provides background information on the Federal Information Security
Management Act (FISMA) and the National Credit Union Administration (NCUA).

Federal Information Security Management Act

The President signed into law the E-Government Act (Public Law 107-347), which
includes Title III, Information Security, on December 17, 2002. The Federal Information
Security Management Act (FISMA) permanently reauthorized the framework laid out in
the Government Information Security Reform Act of 2000 (GISRA), which expired in
November 2002. FISMA continues the annual review and reporting requirements
introduced in GISRA. In addition, it includes new provisions aimed at further
strengthening the security of the Federal government’s information and information
systems, such as development of minimum standards for agency systems. In general,
FISMA:

    •   Lays out a framework for annual information technology security reviews,
        reporting, and remediation plans.
    •   Codifies existing OMB security policies, including those specified in Circular
        A-130, Management of Federal Information Resources, and Appendix III.
    •   Reiterates security responsibilities outlined in the Computer Security Act of 1987,
        Paperwork Reduction Act of 1995, and Clinger-Cohen Act of 1996.
    •   Tasks NIST with defining required security standards and controls for Federal
        information systems.

The Department of Homeland Security (DHS) issued the FY 2012 reporting metrics
(February 14, 2012), which provide measures against which agency Chief Information
Officers, Offices of Inspector General, and Senior Agency Officials for Privacy assess
the status and compliance of agencies’ information security and privacy management
programs. 1 OMB issued the FY 2012 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management on October 2, 2012. This
document provides instructions to agencies for meeting its reporting requirements under
FISMA. In addition, it includes instructions for reporting on agencies’ privacy
management programs. Furthermore, it includes clarifications to help agencies
implement and meet FISMA and privacy requirements.

National Credit Union Administration (NCUA)

NCUA is the independent Federal agency that charters, supervises, and insures the
nation’s Federal credit unions. NCUA insures many state-chartered credit unions as
well. NCUA is funded by the credit unions it supervises and insures. NCUA's mission is
to foster the safety and soundness of Federally-insured credit unions and to better


1
 DHS is exercising primary responsibility within the Executive Branch for the operational aspects of Federal agency
cyber security with respect to the Federal information systems that fall within FISMA under 44 U.S.C. §3543.

                                                                            Restricted - For Official Use Only
                                                         2
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


enable the credit union community to extend credit for productive and provident
purposes to all Americans, particularly those of modest means.

NCUA strives to ensure that credit unions are empowered to make necessary business
decisions to serve the diverse needs of its members and potential members. It does
this by establishing a regulatory environment that encourages innovation, flexibility, and
a continued focus on attracting new members and improving service to existing
members.

NCUA has a full-time three-member Board (NCUA Board) consisting of a chairman and
two members. The chairman is appointed by the President of the United States and
confirmed by the Senate. No more than two board members can be from the same
political party, and each member serves a staggered six-year term. The NCUA Board
regularly meets in open session each month, with the exception of August, in
Alexandria, Virginia.

                                     III. OBJECTIVE

The audit objective was to assist the OIG in performing an independent evaluation of
NCUA information security and privacy management policies and procedures for
compliance with FISMA and Federal regulations and standards. We evaluated NCUA’s
efforts related to:

   •   Efficiently and effectively managing its information security and privacy
       management programs;

   •   Meeting responsibilities under FISMA;

   •   Remediating prior audit weaknesses pertaining to FISMA and other security
       weaknesses identified; and

   •   Implementing its Plans of Action and Milestones (POA&M)

In addition, the audit was required to provide sufficient supporting evidence of the status
and effectiveness of NCUA’s information security and privacy management programs to
enable the OIG to report to OMB.

                          IV. METHODOLOGY AND SCOPE

We evaluated NCUA’s information security and privacy management programs and
practices against such laws, standards, and requirements as those provided through
FISMA, the E-Government Act, NIST standards and guidelines, the Privacy Act, and
OMB memoranda and security and privacy policies.

During this audit, we assessed NCUA information security and privacy management
programs in the areas identified in The Department of Homeland Security’s FY 2012

                                                           Restricted - For Official Use Only
                                             3
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


Inspector General FISMA Reporting Metrics. These areas included: risk management,
configuration management, incident response and reporting, security training, POA&M,
remote access management, identity and access management, continuous monitoring
management, contingency planning, contractor systems, and security capital planning.

We conducted our fieldwork from August 2012 through October 2012. We performed
our audit in accordance with generally accepted government auditing standards. The
standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                                          Restricted - For Official Use Only
                                            4
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


                                          V. RESULTS IN DETAIL

Information security and privacy program planning and management controls are
designed to provide the framework and continuing cycle of activity for managing risk,
developing security and privacy policies, assigning responsibilities, and monitoring the
adequacy of information security- and privacy-related controls. NCUA has made
progress in addressing last year’s reported deficiencies; however, some prior year
deficiencies remain. In addition, we identified other areas for improvement that require
management's attention. We discuss these issues below.

1. NCUA needs to improve its Continuous Monitoring Program

NCUA has some automated tools (e.g., intrusion detection, Secure Content Automation
Protocol), and policies and procedures that would be components of a continuous
monitoring program. However, NCUA has not completely implemented a Continuous
Monitoring strategy and plan. Specifically, NCUA has not documented Continuous
Monitoring policies and procedures and has not fully integrated the various components
of its information security program into a strategy that facilitates near real-time
monitoring and risk management. This is a repeat finding from the 2011 FISMA
evaluation. This finding includes issues in the following areas that we address in other
sections of the report.

    •    Risk management policies and procedures (see page 7);

    •    Plans of Action and Milestones (see page 9);

    •    Configuration and patch management of Macintosh computers (see page 11);

    •    Inventory of contractor systems (see page 22); and

    •    Privacy (see page 23).

In FY 2011, the Administration identified Continuous Monitoring as one of three FISMA
priorities. 2 In FY 2012, Continuous Monitoring is again identified as one of the three
priorities having the greatest probability of success in mitigating cyber security risks to
agency information systems.

NIST SP 800-53 guides that agencies should establish a continuous monitoring strategy
and implement a continuous monitoring program that includes: A configuration
management process for the information system and its constituent components; a
determination of the security impact of changes to the information system and
environment of operation; ongoing security control assessments in accordance with the
organizational continuous monitoring strategy; and reporting the security state of the
information system to appropriate organizational officials.
2
 The Administration’s other two priorities are Trusted Internet Connection capabilities and traffic consolidation, and
Homeland Security Presidential Directive (HSPD)-12, implementation for logical access control.

                                                                               Restricted - For Official Use Only
                                                           5
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012



NIST SP 800-137, Information Security Continuous Monitoring (ISCM) for Federal
Information Systems and Organizations (September 2011), guides that Information
Security Continuous Monitoring (ISCM) supports agency risk management decisions
e.g., risk response decisions, ongoing system authorization decisions, Plans of Action
and Milestones (POA&M) resource and prioritization decisions, etc. It also indicates
that maintaining an up-to-date view of information security risks across an organization
requires the involvement of the entire agency, from senior leaders providing governance
and strategic vision to individuals developing, implementing, and operating individual
information systems in support of the organization’s core missions and business
functions.

NIST SP-800-37, Revision 1, Guide for Applying the Risk Management Framework to
Federal Information Systems: A Security Life Cycle Approach (February 2010), guides
that a robust continuous monitoring program requires the active involvement of
information system owners and common control providers, chief information officers,
senior information security officers, and authorizing officials. The monitoring program
allows an organization to: track the security state of an information system on a
continuous basis; and maintain the security authorization for the system over time in
highly dynamic environments of operation with changing threats, vulnerabilities,
technologies, and missions/business processes.

By improving and implementing a comprehensive continuous monitoring program,
NCUA will be more aware of and better prepared to respond to potential threats and
vulnerabilities. Ultimately, NCUA will be able to better protect the confidentiality,
integrity, and availability of its systems and data.

Recommendation: We recommend that NCUA management:

1. Document and implement comprehensive continuous monitoring strategies, policies
   and procedures in accordance with guidance under Information Security Continuous
   Monitoring, the Risk Management Framework and other NIST guidance.

Agency Response:

OCIO will update procedures to further address this issue. OCIO will conduct an
analysis of the Risk Management Framework and adjust policies and procedures
accordingly.

Due Date: TBD

OIG Response: The OIG concurs.


2. NCUA needs to improve its Risk Management Program



                                                          Restricted - For Official Use Only
                                            6
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


NCUA continues to make progress in implementing a comprehensive risk management
program. However, during FY2012, NCUA did not fully implement a risk management
program compliant with FISMA requirements. We determined:

    •   NCUA’s risk management program documentation does not include organization-
        wide risk management strategies from organization, information, mission or
        business process perspectives. Specifically, NCUA policies and procedures do
        not address all the areas of the NIST Risk Management Framework process as
        listed below:

        o Selecting Security Controls – Management does not have procedures to
          identify and select security controls that are specific to each system. For
          example:

              NCUA did not address all of the 202 moderate baseline controls included
               in the 17 control families 3 it identified for its General Support System
               (GSS).

              NCUA’s Asset Management and Assistance Center (AMAC) security plan
               did not address each of the minimum security controls applicable to the
               system’s security categorization and did not match the control families
               identified in NIST SP 800-53. This is a repeat finding from the FY 2011
               FISMA evaluation.

        o Assessing Security Controls – NCUA does not have procedures on how it will
          test security controls. Specifically, out of the 17 control families required by
          NCUA, NCUA only tested 10 control families for the GSS. In addition, each
          control family did not include all the controls from NIST SP 800-53 as
          indicated above. As a result, NCUA did not test all the controls within the 10
          control families.

        o Monitoring Security Controls – NCUA does not have adequate procedures to
          monitor security controls specific to the NCUA environment.

    •   NCUA did not complete the annual testing of security controls for all the agency’s
        systems.

    •   NCUA does not perform or explicitly consider security impact analyses of the
        GSS and the Insurance Information System (IIS) prior to implementation of
        configuration changes.



3
  NIST SP 800-53 identifies 18 control families. Seventeen of the control families align with the minimum security
requirements for federal information and information systems as described in FIPS 200, Minimum Security
Requirements for Federal Information and Information Systems (March 2006). The remaining control family provides
controls for information security programs.

                                                                           Restricted - For Official Use Only
                                                        7
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


   •   NCUA is operating four of its five FISMA systems - the IIS; AMAC; Examination
       Support System (ESS); and Online Data Collection System (ODCS) - without the
       required Authority to Operate (ATO). The ATOs for these systems expired in
       2012:

   •   NCUA does not have a formal mechanism in place to report the status of
       information security to senior management.

The Risk Management Framework - as prescribed by NIST SP 800-37 - is the
foundation for implementing and maintaining an effective information security program.
NIST SP 800-37 provides guidelines for applying the Risk Management Framework to
federal information systems to include conducting the activities of security
categorization, security control selection and implementation, security control
assessment, information system authorization, and security control monitoring.

FIPS PUB 200, Minimum Security Requirements for Federal Information and Information
Systems (March 2006), requires agencies to: periodically assess the security controls
in organizational information systems to determine if the controls are effective in their
application; develop and implement plans of action designed to correct deficiencies and
reduce or eliminate vulnerabilities in organizational information systems; authorize the
operation of organizational information systems and any associated information system
connections; and monitor information system security controls on an ongoing basis to
ensure the continued effectiveness of the controls.

NCUA does not have sufficient dedicated information security resources to monitor
federal guidance on a periodic basis and maintain its procedures in compliance with that
guidance or to perform security authorization functions separate from system owners.

In response to the FY 2011 FISMA evaluation, NCUA indicated it was going to: (1)
work with AMAC to update the security plan; and (2) consolidate of all its systems as
appendices into one system security plan under the General Support System. NCUA
has been planning since last year to consolidate its five FISMA systems under its
General Support System (GSS) via the security authorization process. NCUA planned
to complete the security authorization by July 2012; however, due to key information
technology staff changes, the security authorization was delayed and is currently in
process. Completing the security authorization should address NCUA’s Authority to
Operate its system(s) and the issues with the AMAC security plan, which would be
consolidated under the GSS security plan.

With updated and approved program policies and procedures to support its Risk
Management program, NCUA will be able to better manage its information systems-
related risks consistent with the Risk Management Framework. In addition, by ensuring
its systems are operating with a valid ATO, coupled with a comprehensive annual
control testing program, and a complete and comprehensive POA&M tracking program,
NCUA could avoid or mitigate system issues that could adversely impact NCUA
operations. Furthermore, by performing security impact analysis of system

                                                          Restricted - For Official Use Only
                                            8
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


configuration changes, NCUA could mitigate the chance of introducing configuration
changes that could adversely impact the confidentiality, integrity and availability of its
systems. Finally, adequate segregation of duties in the system security authorization
process would help mitigate intentional, inadvertent or missed threats to information
systems security within the NCUA systems environment.

Recommendations: We recommend that NCUA management:

2. Review its risk management program documentation and update policies and
   procedures based on the prescribed risk management strategies outlined within
   NIST guidance.

3. Schedule and complete the system security authorization process on a timely basis
   such that all agency systems are continuously operating under a valid approved
   Authority to Operate.

4. Document, implement, and annually test all controls for its systems as identified in
   NIST guidance.

5. Implement and monitor the timely completion of annual security testing.

Agency Response:

OCIO is currently executing an independent certification and accreditation process
which covers the entire new consolidated NCUA GSS. This process will address all
issues listed here including updates to the documentation necessary to support future
risk management actions.

Due Date: 7/29/2013

OIG Response: The OIG concurs.


3. NCUA needs to improve its Plan of Action and Milestones (POA&M) Process

While NCUA has an active POA&M process in place, we determined that NCUA policies
and procedures do not provide adequate guidance in regards to how NCUA should
manage its POA&M process. Specifically, NCUA has not defined the thresholds for the
findings that should be added to the POA&M process and how findings outside of the
POA&M process are tracked and remediated. In addition, NCUA does not have
procedures to: prioritize POA&M items; track the POA&M items within the SharePoint
system; define the level of effort to close POA&M items; and define the timeframe for
updating and escalating the POA&M process to management.

NIST SP 800-53 guides that organizations: develop POA&Ms for the information
system to document the organization’s planned remedial actions to correct weaknesses


                                                             Restricted - For Official Use Only
                                              9
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


or deficiencies noted during the assessment of the security controls and to reduce or
eliminate known vulnerabilities in the system; and update existing POA&Ms based on
the findings from security controls assessments, security impact analyses, and
continuous monitoring activities. In addition, a dedicated information security resource
is critical to ensuring that the CIO, Deputy CIO, system owners and other key NCUA
staff are continually updated and aware of information security requirements, the risk
posture of NCUA systems, and the status of mitigation plans.

NCUA does not have a dedicated resource to enhance or update POA&M policies and
procedures or to manage the tasks associated with the POA&M process.

By enhancing its POA&M policies and procedures and dedicating an independent
information security resource to manage the POA&M process, NCUA can correct
information security weaknesses and deficiencies in a more adequate and timely
manner. These enhancements would effectively improve the overall security of its
information systems environment and better protect NCUA systems and data.

Recommendations: We recommend that NCUA management:

6. Enhance its POA&M policies and procedures.

7. Dedicate an independent information security resource to manage the POA&M
   process.

Agency Response:

OCIO will enhance procedures to refine the POA&M process to address the specific
issues listed above. We would like to note one exception here. Findings outside the
POA&M process will continue to be addressed on a case-by-case basis.

OCIO is currently going through reorganization and has designated a dedicated position
for the Information Security Officer.

Due Date: 7/29/2013

OIG Response: The OIG concurs.




                                                          Restricted - For Official Use Only
                                           10
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


By documenting and establishing a comprehensive configuration management program,
NCUA can more effectively and efficiently monitor, manage, and patch the security
configurations for all systems and devices within the NCUA information system
environment. Ultimately, a more comprehensive program will help ensure NCUA
protects the confidentiality, integrity and availability of all the agency’s systems and
data.

Recommendations: We recommend that NCUA management:

8. Establish a comprehensive configuration management program that includes policy
   and procedures for monitoring, managing, and patching security configurations for
   all systems and devices:

9. Provide dedicated information security resources responsible for implementing,
   managing and overseeing NCUA’s configuration management program.

10. Review and determine whether it would be in the best interest of NCUA’s overall
    information security posture to transfer responsibility for the UNIX environment from
    AMAC to the OCIO.

Agency Response:

OCIO will conduct an analysis of the current configuration management program in light
of the new NIST guidance. The new ISO will be responsible for management and
oversight of this program.

OCIO will work with the OED to address managing AMAC operations to ensure a proper
security posture.

Due Date: TBD

OIG Response: The OIG concurs.


5. NCUA needs to improve its Identity and Access Management Controls

We determined NCUA’s access management policies and procedures are not in
compliance with NIST guidelines and have not been updated to reflect NCUA’s current
procedures. Specifically:

   •   NCUA’s process for providing access to new hires is not adequate. NCUA’s user
       access documentation does not always include the specific level of access
       requested for the user or clearly indicate who approved the user access request.




                                                           Restricted - For Official Use Only
                                           12
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012



   •   NCUA has not documented and implemented preventive controls, planned
       maintenance, or strategies for its Insurance Information System (IIS).

   •   The results of the IIS Contingency Plan test do not provide an after action report
       or evidence of corrective actions taken.

   •   NCUA does not have approval letters for its General Support System (GSS) and
       IIS Contingency Plans to validate that the Plan documentation is complete.

   FIPS PUB 200 requires agencies to establish, maintain, and effectively implement
   plans for emergency response, backup operations, and post-disaster recovery for
   organizational information systems to ensure the availability of critical information
   resources and continuity of operations in emergency situations.

   NIST SP 800-34, Revision 1, Contingency Planning Guide for Federal Information
   Systems (May 2010), guides that in order for an agency to develop and maintain an
   effective information system contingency plan, the process must include the
   following seven steps that represent key elements in a comprehensive information
   system contingency planning capability:

       •   Developing the policy;

       •   Conducting the business impact analysis;

       •   Identifying preventive controls;

       •   Creating contingency strategies;

       •   Developing a contingency plan;

       •   Ensuring plan testing, training, and exercises; and

       •   Ensuring plan maintenance

NIST SP 800-53 guides that the organization should revise its contingency plans to
address: changes to the organization, information system, or operational environment;
and problems encountered during plan implementation, execution, and testing. NIST
SP 800-53 also guides that a designated official should review and approve the
organization’s contingency plans.

NCUA has been planning to consolidate its five systems into one overall system under
its General Support System (GSS) since last year via its security authorization process.
NCUA planned to complete the security authorization by July 2012; however, due to key
information technology management changes, the security authorization was delayed


                                                           Restricted - For Official Use Only
                                              18
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


and is currently in process. Completing the security authorization should remediate the
issues under this finding.

By implementing complete, comprehensive and current contingency planning, NCUA
will have better assurance that its mission-critical system(s) will be able to continue to
operate in an emergency situation whether that involves restoring data or relocating to
an alternate processing site.

Recommendations: We recommend that NCUA management:

21. Ensure that NCUA’s contingency planning process and its consolidated Contingency
    Plan include the following missing components:

       •   A plan approval letter to validate that the Contingency Plan documentation is
           complete.

       •   Documented and implemented preventive controls, planned maintenance,
           and strategies.

22. Ensure that NCUA documents evidence of corrective actions taken or an after action
    report as a result of Contingency Plan testing.

Agency Response:

Most of the issues will be resolved by the current C&A effort. OCIO will work with OED
to resolve issue related to AMAC operations.

Due Date: TBD

OIG Response: The OIG concurs.


9. NCUA needs to improve its Security Capital Planning and Investment Program

We determined NCUA’s agency wide Information Security Procedures do not
adequately address a structured process to evaluate security-related needs and
perform budgeting at a sufficiently detailed level. Specifically, NCUA does not have
specific guidelines for planning, budgeting, and mapping major capital information
technology security resource expenditures according to POA&Ms and other information
technology-related initiatives. For example, we reviewed the POA&M for records
related to NCUA’s General Support System (GSS) and its Insurance Information
System (IIS) to assess whether NCUA coordinates its budgeting activities for
information technology security expenses with its POA&M remediation expenses. We
found that NCUA’s annual budget did not include distinct line items traceable to the
agency’s POA&M entries.



                                                            Restricted - For Official Use Only
                                            19
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


NIST SP 800-53 guides that organizations: include a determination of information
security requirements for the information system in their mission/business process
planning; determine, document, and allocate the resources required to protect the
information system as part of its capital planning and investment control process; and
establish a discrete line item for information security in organizational programming and
budgeting documentation. In addition, NIST SP 800-53 guides that organizations
should ensure that all capital planning and investment requests include the resources
needed to implement the information security program and document all exceptions to
this requirement.

By implementing a comprehensive Capital Planning and Investment Control process,
NCUA would help ensure the agency adequately budgets its funding needs for all of its
information technology security expenses. This process would help NCUA more
efficiently mitigate risks and vulnerabilities within NCUA’s information technology
environment, ultimately helping to protect the confidentiality, integrity, and availability of
NCUA’s systems and data.

Recommendations: We recommend that NCUA management:

23. Implement Capital Planning and Investment Control procedures and guidelines to
    consistently and systematically drive the evaluation and documentation of security-
    related resources in the capital planning process. The guidance should include
    documentation requirements with respect to budgeting for all information security
    program expenses that would normally occur. These would include such expenses
    as the cyclical security authorization process, risk identification and mitigation
    activities, remediation of security weaknesses, and activities associated with day-to-
    day information security operations.

24. Implement a process to periodically monitor information technology security-related
    expenses against the budget for each information technology security component.

Agency Response:

OCIO is in the process of developing an IT prioritization council that will factor
information security costs and required resources as part of the budgeting process.
However, OCIO has not requested specific funding for information security in the past.
OCIO will work with OED on budgeting for information security matters.

Due Date: TBD.

OIG Response: The OIG concurs.




                                                              Restricted - For Official Use Only
                                              20
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


10. NCUA needs to improve its Security Awareness Training Program

We determined NCUA procedures for Security Awareness Training (SAT) and
role-based training do not reflect current NIST guidance. Specifically, NCUA does not
have documented procedures for reviewing the timely completion of security awareness
training by new hires. In addition, NCUA has not established a specific timeframe within
which new hires must complete the agency’s rules of behavior, or sanctions for new
hires who do not complete the rules of behavior. Furthermore, NCUA: (1) does not
have a formal and documented process to identify all roles that need specialized
security training; and (2) does not specify the types and the frequency of the specialized
training, or the personnel required to attend the training.

NIST SP 800-53 guides that organizations should provide basic security awareness
training to all information system users (including managers, senior executives, and
contractors) as part of initial training for new users, when required by system changes,
and periodically thereafter. In addition, NIST SP 800-16, Information Technology
Security Training Requirements: A Role- and Performance-Based Model (April 1998),
requires training: for current employees; new employees within 60 days of hire;
whenever there is a significant change in the agency's IT security environment or
procedures, or when an employee enters a new position which deals with sensitive
information; and periodically as refresher training, based on the sensitivity of the
information the employee handles. NIST SP 800-53 also guides that organizations
provide role-based security-related training before authorizing access to a system or
performing assigned duties; when required by system changes; and periodically
thereafter.

NCUA does not have dedicated information security resources to develop, document,
implement and monitor a robust security awareness training program that meets NIST
guidance and requirements.

By implementing a current and effective security awareness training program, NCUA
management can help ensure all personnel receive the required security training. This
includes role-based training for individuals with system security responsibilities such as
system administrators, system owners and individuals that play a critical role in the
administration of information security at NCUA. Individuals who receive adequate and
current security training and who are aware of their security responsibilities will be better
prepared to perform their assigned duties in the most secure manner. Ultimately, this
helps NCUA protect the confidentially, availability, and integrity of its systems and data.

Recommendations: We recommend that NCUA management:

25. Designate dedicated information security resources to:

   •   Update the general security awareness training program and role-based training
       program to meet NIST guidance and requirements.



                                                             Restricted - For Official Use Only
                                             21
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


   •   Monitor and track the timely completion of new hire security awareness training
       and establish and enforce sanctions for non-compliance.

   •   Periodically review and update the list of individuals that need role-based
       training; specify frequency of role-based training; and enforce timely completion
       of role-based training.

Agency Response:

OCIO will continue to improve security awareness policies and procedures to be
consistent with NIST guidelines. OCIO will assign a backup to ensure that the daily
report for new hire security awareness training is run and enforced. OCIO will complete
this year’s role-based security training.

Due Date: 7/29/2013

OIG Response: The OIG concurs.


11. NCUA needs to improve Oversight of its Contractor Systems

While NCUA has a current inventory of contractor systems operating in or connected to
the NCUA environment, NCUA has not fully implemented a formal contractor oversight
management process in alignment with the applicable federal guidelines. Specifically:

   •   Current NCUA policies and procedures do not provide sufficient guidance in
       regards to how NCUA should monitor and assess information security
       requirements for its contractor systems. For example:

          o NCUA does not have a formal process in place for maintaining sufficient
            assurance that security controls of contractor provided or hosted systems
            and services - such as the GSA-PIV (Personal Identity Verification) and
            the Angel Parature systems - are effectively implemented and comply with
            federal and NCUA guidelines.

          o NCUA does not have a process in place to ensure it obtains the System
            Security Plans (SSPs) of contractor systems. Specifically, NCUA does not
            have the SSPs for two of its three contractor systems - the Angel Parature
            or the GSA PIV systems.

          o NCUA does not have a formal process for capturing and maintaining an
            inventory of contractor systems under FISMA inventory requirements.

   •   NCUA does not have a Memorandum of Understanding or Interconnection
       Security Agreement (MOU/ISA) for the Angel Parature system.



                                                           Restricted - For Official Use Only
                                           22
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


NIST SP 800-53 guides that organizations develop and maintain an inventory of its
information systems. In addition, NIST SP 800-53 guides that organizations: authorize
connections from their information systems to other information systems outside of the
authorization boundary through the use of Interconnection Security Agreements, and
document - for each connection - the interface characteristics, security requirements
and the nature of the information communicated; and monitor the interconnections on
an ongoing basis to verify enforcement of security requirements.

While OCIO is centrally responsible for the security of all systems operating in the
NCUA environment, functional system owners are responsible for obtaining and
maintaining system security documentation for their contractor systems without
oversight from or the involvement of OCIO.

By improving its contractor oversight process, NCUA can have better assurance that
contractor systems operating in or connected to the NCUA systems environment have
the same information security measures implemented as NCUA’s systems. As a result,
NCUA could better ensure that threats to its network are protected against compromise
and better ensure the confidentiality and integrity of NCUA data.

Recommendations: We recommend that NCUA management:

26. Develop and implement a formal process to centrally monitor and maintain an
    inventory of contractor systems and obtain from system owners the associated
    approved security documentation (e.g., System Security Plans, Interconnection
    Security Agreements, etc.) in accordance with NIST guidance.

Agency Response:

OCIO will improve policies and procedures to monitor security of contractor systems.
OCIO will work with system owners to maintain appropriate security documents in
accordance with NIST guidance.

OCIO would like to make one observation. It is not always possible to obtain security
plans for contractor systems. In lieu of a security plan we gather SAE16 documents
and Accreditation letters.

Due Date: 7/29/2013

OIG Response: The OIG concurs.


12. NCUA needs to improve its Privacy Program

NCUA has not completed an initial review of its holdings of Personally Identifiable
Information (PII), and if necessary, reduced its use of PII and Social Security Numbers
(SSNs). This is a repeat finding from the FY 2011 FISMA evaluation. In addition,


                                                           Restricted - For Official Use Only
                                            23
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


NCUA has not done an assessment to determine whether it needs to conduct a Privacy
Impact Analysis (PIA) for its systems and has not developed a privacy program to
monitor its use and handling of PII on a continuing basis.

NIST SP 800-122, Guide to Protecting the Confidentiality of Personally Identifiable
Information (PII) (April 2010), indicates that organizations: are required to identify all PII
residing within their organization or under the control of their organization through a
third party; and should minimize the use, collection, and retention of PII to what is
strictly necessary to accomplish their business purpose and mission. It also reiterates
that OMB Memorandum-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information (May 22, 2007), required that agencies:

    •    Review current holdings of PII and ensure they are accurate, relevant, timely,
         and complete;

    •    Reduce PII holdings to the minimum necessary for proper performance of
         agency functions;

    •    Develop a schedule for periodic review of PII holdings; and

    •    Establish a plan to eliminate the unnecessary collection and use of SSNs.

OMB Memorandum-03-22, OMB Guidance for Implementing the Privacy Provisions of
the E-Government Act of 2002 (September 26, 2003), indicates that in addition to the
requirements identified in the E-Government Act, agencies must in general perform and
update a PIA as necessary where a system change creates new privacy risks.

NIST SP 800-122 guides that organizations often use a Privacy Threshold Analysis
(PTA) to determine if a system contains PII, whether a PIA is required, whether a
System of Records Notice (SORN) is required, and if any other privacy requirements
apply to the information system. 5 It adds that PTAs are useful in initiating the
communication and collaboration for each system between the privacy officer, the
information security officer, and the information officer.

Organizational and staff changes surrounding oversight of the privacy program delayed
NCUA in completing its initial review of PII. In addition, NCUA was not aware that it
needed to conduct a PIA on its existing systems.

By performing a review to determine the amount of PII the agency holds and conducting
a PTA (or PIA) for its systems, NCUA will mitigate the risk of exposing its sensitive data
to a breach of confidentiality by an authorized or unauthorized entity. Ultimately, this
could prevent public embarrassment for the agency and a loss of trust by the public.


5
 Other examples of methods to identify PII include reviewing system documentation, conducting interviews,
conducting data calls, using data loss prevention technologies (e.g., automated PII network monitoring tools), or
checking with system and data owners.

                                                                              Restricted - For Official Use Only
                                                         24
REPORT # OIG-12-13: INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA) 2012


Recommendations: We recommend that NCUA management:

27. Complete an initial review of NCUA’s current holdings of Personally Identifiable
    Information (PII) and, if necessary, develop a plan to reduce any unnecessary use of
    PII.

28. Assess whether NCUA’s system(s) require a PIA in the near term.

29. Develop a privacy program that includes policies and procedures for monitoring the
    usage and handling of PII on a continuous basis, determining when to perform a
    PIA, and the process for completing a PIA.

Agency Response:

The Office of General Counsel agrees with the recommendations and the Senior
Agency Official for Privacy (SAOP) has initiated responsive actions. For example, in
conjunction with NCUA’s IT Systems Inventory Initiative, we are collecting information
identifying systems containing PII and whether a PIA is required. We also are
coordinating with the Office of the Chief Information Officer to identify planned system
changes or procurements that will require a PIA. Additionally, as part of a
comprehensive review of NCUA’s privacy program, NCUA will review and revise as
necessary its general privacy instruction and individual offices’ policies and procedures
to address the usage and handling of PII. We will also continue ongoing privacy
awareness training efforts including an expansion of targeted training for individual
offices.

OIG Response: The OIG concurs.




                                                           Restricted - For Official Use Only
                                            25
